OIG Investigative Reports, Two Men Plead to Charges of Defrauding Federal Government of Financial Aid Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE:
November 7, 2005
U.S. Department of Justice
United States Attorney
Northern District of California
11th Floor, Federal Building
450 Golden Gate Avenue, Box 36055
San Francisco, California  94102
Tel: (415) 436-7200
Fax: (415) 436-7234
Two Men Plead to Charges of Defrauding Federal Government of Financial Aid Funds
SAN FRANCISCO - United States Attorney Kevin V. Ryan announced that Serge Ivanov, 45, of Beverly Hills, California and Michael Solovey, 40, of Buffalo, New York pleaded guilty on November 2, 2005, to one count of conspiracy to commit mail fraud.
Mr. Ivanov, who was part owner of the California School of Medical Sciences, had previously been authorized to receive federal financial aid, in the form of grants and loans, for students enrolled in an ultrasound course at his school's Beverly Hills location.  Mr. Ivanov and Mr. Solovey, who at the time was manager of the Software Training Center in San Francisco, conspired to have Solovey submit to Ivanov fake financial aid applications from students taking computer courses at Solovey's school.  The applications indicated that students had taken an ultrasound course, when they never had and the students were unaware that their financial information was used to obtain federal funds for the purported ultrasound course.
According to the plea agreement, to promote the fraud and create the appearance that an ultrasound course existed, defendants manufactured and forged student signatures on forms such as student attendance records, course evaluation sheets, and even created report cards showing that these students had enrolled in and completed an ultrasound course though they never had.  Mr. Ivanov and Mr. Solovey admitted to defrauding the federal government of over $400,000 dollars.  Sentencing for both defendants is scheduled for February 8, 2006 in front of the Honorable Charles R. Breyer.
The prosecution is the result of a 4-year investigation by agents of the Department of Education's Office of Inspector General; the Federal Bureau of Investigation and the Internal Revenue Services's Criminal Investigation Division.  Stacey Geis and Susan Badger are the Assistant U.S. Attorneys who prosecuted the case.
The maximum statutory penalty for violating 18 U.S.C. § 371 - conspiracy to commit mail fraud -  is 5 years and a $250,000 fine, plus restitution to the Department of Education.   However, any sentence following conviction would be imposed by the Court after consideration of the U.S. Sentencing Guidelines and the federal statute governing the imposition of a sentence, 18 U.S.C. 3553.
A copy of this press release may be found on the U.S. Attorney's Office's website at  www.usdoj.gov/usao/can.
All press inquiries to the U.S. Attorney's Office should be directed to Luke Macaulay at (415) 436-6757 or by email at Luke.Macaulay@usdoj.gov.
Top
Printable view
Share this page
Last Modified: 11/09/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov